             HOSPITAL CLOSURE: 1987           .





                   RICHARD P. KUSSERO W
                    INSPECTOR GENERAL




OAC04-89-00740                            MAY ‘s!d9
                                 EXEClJTlVE SUMMARY 


PURPOSE

This inspection was conducted to describe the phenomenon of hospital closures in the United
States. It examines the characteristics of, reasonsfor, and impact of closures in 1987.

BACKGROUND

In recent years, the closure of general, acute care hospitals has generated increasing public and
congressional concern. According to recent studies, more hospitals are expected to close their
doors in coming years. Numerous questions have been raised about the reasonsfor-and the ef­
fects of hospital closure, as well as the implications for public policy. Legislation was passed.
in 1987 to provide Rural Health Care Transition Grants to help communities addressthe kinds
of changesthat may lead to hospital closure.

FINDINGS

This inspection found that for 1987:

Sixty-nine general, acute care hospitals closed. They were located in 27 States. Thirteen new
hospitals opened in 1987, and 8 of the 69 which closed in 1987 reopened in 1988.

Rural and urban hospitals closed in roughly equal proportion to their numbers nationally.

Hospitals that closed were small. Rural hospitals that closed were about half the size of the
averagerural hospital. Urban hospitals that closed were just over one-third as large as the
averageurban hospital.

Occupancy rates for both rural and urban hospitals that closed were much lower than the na­
tional averages.

When compared to national norms, there were no signifkant differences in either the
Medicare or the Medicaid utilization rates of hospitals that closed.

There was no single factor or event which causedhospitals to close. Rather, a set of factors
relating to hospital financing gradually diminished hospital viability. Hospitals that closed
were reported to have had:

.	    declining revenues due to fewer admissions; lower third-party reimbursement, and more
      uncompensatedcare; and

.	    rising costs due to increasing demands for new medical technology, skilled personne!.
      and facility maintenance, renovation, or replacement.



                                                1
Emergency services and inpatient care are accessibleto most people living in communities.
where hospitals closed in 1987.

SUMMARY

Hospitals that closed in 1987 were small and had low occupancy rates. When the hospitals
closed, few patients were affected. Most could get medical care nearby.

FUTURE STUDIES

The Office of Inspector General will look further into actions communities can take to main­
tain accessto medical care in the face of possible hospital closure.




                                              ii
                                                     TABLE OF CONTENTS 


                                                                                                                                                  Page


EXECUTlVE SUMMARY
INTRODUCTlON                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..l
     Background .....................................................                                                                              .

     Purpose        ......................................................                                                                  ..l

    scope         .........................................................                                                                        .

     Methods           .......................................................                                                                     .

FlNDlNGS            ........................................................                                                                      .

     Extent and Nature of Hospital Closures .............                                                 r ... ; .............               .3
           Howmanyclosed?     ............................................                                                                        .
           Where werethey?.  ............................................                                                                         .
           Howmanyopened?       ...........................................                                                                    .
           What were these hospitals like? .................................                                                                  .4
           Whydidtheycfose?     ...........................................                                                                    .

     Impact of Hospital Closures                           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
           How many patients were affected? ...............................                                                                   11
           Is inpatient care accessible? ...................................                                                                .I2
           Is emergency care available? ..................................                                                                  .12
           What happened to the buildings? ...............................                                                                  .13

     FutureStudies........................................:.........l                                                                             4
NOTES...:......................................................l                                                                                  5

APPENDICES
     Appendix A: Methodology by Topic Area . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-l
     Appendix 8: Hospital Closure Charts                                         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-l




                                                                                 ...
                                                                                 111
                                       INTRODUCTION 


BACKGROUND

Congressand the public have shown increasing interest in hospital closings. They raise con­
cerns about accessto inpatient care and emergency services,particularly for older people in
rural areas.

The American Hospital Association (AHA) reported 96 hospitals closed in 1987. According
to a 1984 study by Arthur Anderson & Company, health industry policymakers estimate that
700 of the nation’s hospitals will have closed by 1995.’ A recent Touche Ross survey found
that 48 percent of 419 hospital executives believe their hospitals may fail within 5 years2 The
Government ResearchCorporation estimates that over 40 percent of all hospitals in the United
Stateswill close or be converted to other usesby the year 2000.3

PURPOSE

This inspection was designed to describe the phenomenon of hospital closures in the United
States. It examines the characterktics of, reasonsfor, and impact of theseclosures.

SCOPE

The study examined hospitals that closed in Calendar Year 1987, the latest year for which suf­
ficient data are available on the characteristics of hospitals.

For purposes of this study, the following definitions were used:

Hospital:   A facility that provides general, short-term, acute medical and surgical inpatient ser­
vices.

Closed Hospital:  One that stopped providing general, short-term, acute inpatient services in
1987. If a hospital merged with or was sold to another hospital and the physical plant
remained open for inpatient acute care, it was not considered a closure. If a hospital closed
and reopened in 1987, it also was not considered a closure.

METHODS

Information for this study was obtained Tom an AI-IA list of 1987 hospital closures and Htxirh
Care Financing Administration (HCFA) data bases. Additional information came from con­
tacts with State hospital associations, State licensing and certification agencies, State health
planning agencies,officials associatedwith closed hospitals or hospitals nearby, and !OCJI
public officials.




                                                 1

When the AHA list was compared with HCFA data on Medicare hospitals and information
@omState Government agencies, only 61 of the 96 hospitals listed by the AHA fit the defini­
tions used in this study.

The list comparison showed that 22 of the hospitals on the AHA list were psychiatric,
rehabilitation and other specialty hospitals which did not meet the study criteria. Ten other
hospitals on the list had closed in a year other than 1987. Three hospitals on the list were still
operating. The inspection also uncovered eight hospital closures in 1987 that did not appear
on the list

More information appearsin appendix A on data collection methods.




                                                 2

The Inspector General’s study of hospitals closed in 1987 found that:

.     sixty-nine general, acute care hospitals closed in 1987; 

.     size and occupancy levels appearto be the major factors in hospital viability; 

.     becauseof the small size and low occupancy of hospitals that closed, few patients were 

      affected; and
.     hospital closures do not appearto have resulted in major health care accessproblems.


EXTENT AND NATURE OF HOSPITAL CLOSURES

How many closed?

In 1987, there were more than 6,800 hospitals in the United States. Of those, 5,143 were
general, short-term, acute care hospitals shown in HCFA’s data baseas participating in the
Medicare program. Forty-eight percent are rural and 52 percent are urban.

Sixty-nine hospitals closed in 1987--1.3 percent of all hospitals nationally. When t&y closed,
the general acute care inpatient bed supply was reduced by 4,233 beds, or one-half percent.

Where were they?




                   Ea   On*   Hospital
                                    Closure



                                               3

The closed hospitals were located in 27 States. One-half of these States had only one hospital
closure. The greatest number of closures was in Texas (14), followed by Michigan (6),
&.lifornia (5), and Minnesota (5). Appendix B shows a list of the 1987 closures and the num­
ber of rural and urban hospital ciosures by State.

Rural and urban hospitals closed at a rate roughly proportional to their numbers nationally,
Thirty-seven of the closed hospitals (54 percent) were rural; 32 (46 percent) were urban.



                                    RURAL                          URBAN
     TOTAL: 5143                    2,489     (48%)             2,654       (52%)
     CLOSED:  69                       37     (54%)                32       (46%)


How many opened?

While 69 hospitals closed in 1987, 13 new general, acute care hospitals opened, adding back
1,116 beds to the national bed supply. Eight of the 69 hospitals which closed in 1987
reopened in 1988, adding back 261 beds.

What were these hospitals like?

Size: Hospitals that closed in 1987 were small. Forty-three of them--almost two-thirds--had
fewer than 50 beds. Only 12 had more than 100 beds.



                              SIZE OF CLOSED HOSPITALS

     NUMBER OF BEDS                                    HOSPITALS
                              Rural          Urban           Total          Percent

       o- 29                   15                5            20             29.0%
      30 - 49                  13               10            23             33.3%
      50 - 99                   6                8            14             20.3%
     loo - 199                  3                5             8             11.6%
     200 - 299                  0                4             4              5.8%
     300 +                      0                0             0                0%

     TOTALS                   37               32            69              100%
I




                                                4

Compared to the average size of general, acute care hospitals nationally, both the rural and
Fban hospitals that closed in 1987 were a great deal smaller. Rural hospitals that closed were
,about half the size of the averagerural hospital. Urban hospitals that closed were just over
one-third as large as the averageurban hospital nationally.




                                           BED SIZE
         # of   Beds
         300

                                                            241.7




                       RURAL   HOSPITALS              URBAN HOSPITALS


                       -   NATIONAL    AVG   @i$8 CLOSED   HOSPITAL   AVG




                                               5

Occupancy: Occupancy rates for both rural and urban hospitals that closed in 1987 were
much
.    lower than the national averages.

                                                       OCCUPANCY4
                                                                                                                                       1
        70
                 - .._......
                      -.--.--_.-._-_----___--.-----                                -5&+%             .._.........__._...._..............................
           i’
        60 -
                 ----_._...----       .._.
                                        ____    _--___--                   -.
        50 -’
                 .--...-3&9.%~--~-                             -.-.                                                       _ _.._..
        40 -.’
                 .-.                           _-__---...-
        30 -.
                 -...                                             --
        20 -,
                 -.-...                                           .__-..
                                                                     -....
        10 -’


                            Rural      Hospitals                                     Urban     Hospitals


                                  m      National      Avg     88!         Closed        Hospital      Avg

Medicare and Medicaid Utilization:  There was no significant difference in average 1Medicax-e
occupancy between hoqAals that closed and ail hospitals nationally. Similarly, there were
only marginal differences in averagelkfedicaid utilization between hospitals that closed and all
hospitals nationally.
                                                       UTILJZAT10N5
                                      Medicare                                                  Medicaid
          60




                    Rural                    Urban                                           Rural                   Urban
                  Hospitals                Hospitals                                       Hospitals                Hospitals

                                  m       National       Avg     a              Closed    Hospital       Avg


                                                                      6

Medicare Compliance and Program Integrity:     According to HCFA, five of the closed hospi­
tals had been involuntarily removed from the Medicare program for failure to meet LMedicare’s
conditions of participation. Further, HCFA had taken adverseactions against 11 more of the
closed hospitals for noncompliance with conditions of participation in recent years.

Eleven of the closed hospitals had been reported to the Office of Inspector General’s Office
of Investigations for possible violations of Medicare or Medicaid laws. Of these 11 cases, 1
resulted in a civil monetary penalty; 1 resulted in administrative recoupment of Medicare
funds; 3 were referred to the U.S. Attorney (but were not accepted for prosecution); 5 were
closed with no violation found; and 1 caseis pending:

Why did they close?

The many health care professionals interviewed in the course of this inspection reported no
single reason for hospital ciosure. Rather, they suggesteda number of factors which gradually
weakened the financial condition of thesehospitals. As occupancy declined, revenues lagged;
but costs continued to rise. Operating margins shrank and ultimately there was no choice but
to sell, merge with another hospital, or close the doors.

DecZining Occupancy:     Hospital occupancy is a function of the number of admissions and the
lengths of hospital stay. Respondentscite fewer admissions as the main causeof declining oc­
cupancy.

Physicians control where patients are admitted for inpatient care. For most of the 69 hospitals
that closed in 1987, physician referrals were said to have dwindled for a number of reasons:

.     Physician availability was a problem in rural areas.

      In several rural communities where hospitals closed in 1987, the town’s physician
      retired, died, or moved his practice and no repiacement was found.

      Rural areasare less able to attract and retain physicians. The smaller population base
      often means that the physician practices alone and is always on call. Many physicians
      find rural practice, under these conditions, to be unattractive.

.     Physicians lost confidence in the local hospitai.

      Many of the hospitals included in this study were old and neededrenovation and nml­
      ernization. They lacked the high technology diagnostic and treatment equipment which
      physicians value.

      In caseswhere newer and better equipped hospitals are available nearby, physx:xy ‘CYL:
      to shift their admissions to those facilities.




                                               7

.     Patients, too, preferred other hospitals.

      People.are becoming better informed about health and medical care. They want the best
      care available, and they are more likely to question quality. Although they may be un­
      certain how to measurequality in technical terms, many will choose a large hospital
      over a small one; a newer, better equipped facility over one which shows its age. Many
      of the hospitals which closed in 1987 did not inspire patient confidence.

.	    Medicare peer review organizations (PRO) are more carefully scrutinizing the
      necessity of hospital admissions.

      The PROS are responsible for reviewing hospital admissions for appropriateness, and
      may sanction individual physicians for unnecessaryhospitalization. Where there are
      only a few physicians admitting to a hospital, the likelihood of a physician being in­
      cluded in the PROS’ sample increases. This factor is said to have made physicians more
      cautious in admitting marginally sick Medicare patients, which, consequently, has
      lowered hospital admissions.

      A more subtle effect of the PROS’ diligence is also at play. Patients who were less sick
      and might have been admitted before the advent of PRO review are less likely to be ad­
      mitted. Without these “cheap cases,” hospitals are less able to offset the higher cost of
      unquestionably necessaryadmissions.

.     Competition among hospitals is intense.

      People interviewed for this study reported that competition with other hospitals was a
      factor in many of the closures. Hospitals with limited resources are hard-pressedto com­
      pete with newer or larger hospitals which aggressively market their services, maintain a
      healthy capital reserve, and offer higher salaries to nursing and technical staff.

.     People are more mobile.

      With better roads and improved transportation there is increased accessto distant medi­
      cal facilities. Now physicians and their patients can choose a hospital on the basis of
      quality orreputation rather than solely on proximity.

.     Practice patterns are changing.

      Medical advancesand new technology have allowed some procedures which formerly
      required a hospital stay to be performed on an outpatient basis;

One respondent noted that, as if competition by other hospitals were not enough, now hospl­
tals are in competition with doctors, urgent care clinics, and surgical centers. With the xidsi!
factors of better transportation and greater mobility, patients now have less expensive 2nd
more convenient alternatives to hospitalization.



                                                8

Lagging Revenues: Lower occupancy means less income for hospitals. Other factors were
also
I mentioned by respondents as reasonsfor-declining hospital revenue:
.	   Patients without hospital insurance, or with inadequate insurance, create
     substantial lossesfor the hospital.

     There are estimated to be 37 million people in the United Stgtes who have no medical in­
     surance. Others carry minimal coverage for hospitalization. When hospitals admit
     theseparients they accept losses which appear on the books as “charity” and “bad debt”-­
     uncompensatedcare. In Mississippi, uncompensatedC~I+ZJ    is reported to have totaled
     $443 million in 1987, up almost $70 million from 1986.

     Historically, hospitals covered theselosses,by “cost shifting” to patients who were in­
     sured or could afford to pay. Hospitals set their charges high enough to cover the cost
     of the insured patient’s care plus a portion of the uncompensatedcare. More and more
     insurers are refusing to accept thesecost’shifts.

.    Insurers are better controlling their costs.

     Both public and private insurers are pressedto controi their hospital outlays. Some have
     reduced the percentage of hospital chargesor costs they will reimburse. Others have
     changed from charge-basedreimbursement to paying a scheduled amount per case,
     usually basedon diagnosis and intensity of care required.

     Many respondents pointed out that, with thesechanges,payments from some insurers
     no longer cover the actual cost of care. Several mentioned Medicaid in particular.

     When payments do not cover costs, hospitals must either recoup the difference from the
     patient, shift the cost to another payor, or take a loss.

.     Medicare pays rural hospitals less.

      Medicare reimbursement rates are basedon averagecosts for the geographic area. Since
      rural costs have historically been lower than urban, rural hospitals’ reimbursement TXSS
      are lower. Respondentssuggestedthat hospitals classified as “rural” by HCFA but lo­
      cated in the same labor market as urban hospitals are particularly disadvantaged 5:. \a;n
      payment formulas.

Rising Costs: According to many respondents, hospital costs are rising despip efforx :o ;-.:q
them. On a per-casebasis, costs increased by 9.5 percent in 1987 over 1986.




                                               9

Some of the important factors cited by respondents are:
 .
.     New medical technology is a major capital expense.

      While beneficial in speeding up diagnosis and treatment, technology is very costly. If a
      hospital fails to provide this modem equipment to physicians, they will take their
      patients elsewhere. Small hospitals can least afford such purchases.

.     Labor costs.are increasing, and nursing and technical staff are scarce.

      Shortages of skilled hospital personnel have made it difficult for hospitals to attract and
      retain staff. Rural hospitals in particular have problems competing in the regional and
      metropolitan markets. They must offer salaries equal to or better than suburban hospi­
      tals to balance the disincentives to rural medical practice.

.	    Deteriorating facilities require major capital investments to renovate and
      modernize.

      Many of the hospitals that closed in 1987 are old facilities in need of repair or renova­
      tion. These alterations are expensive. With declining revenues, smaller hospitals are
      often unable to make the neededchanges.

Health care planners, regulators, and hospital administrators contacted during the course of
this inspection described these factors--occupancy, revenue, and cost--as intricately related
and interdependent. Hospital viability was said to depend on the stability of all three. The
weakening of one may begin a chain reaction eventually leading to hospital closure.

When a hospital’s patient censusbegins to slide, patient revenues necessarily decline. If a sub­
stantial proportion of the remaining patients are uninsured and poor, the cost of providing care
is no longer covered by operating revenue.

In order to make payroll and pay the bills, the hospital diverts funds which would ordinarily
be deposited to capital reserves. Needed maintenance and renovation must then be postponed.
The hospital forgoes purchaseof expensive high technology equipment. Soon it is unable to
compete with neighboring hospitals.

Physicians begin admitting their patients to other hospitals which better meet their needs.
This further erodesoccupancy and patient revenues. The hospital may make every effort to
reduce its costs, which may diminish its attractiveness to doctors and patients even more. But
fixed costs remain, and now must be supported by fewer and fewer patients.

The hospital’s operating margin shrinks to the point that all possible solutions become LOO~XY-
pensive. The range of options narrows to merger, sale, or closure.




                                                10 

Small hospitals are least able to defend against this downward spiral. Hospitals which closed
id 1987 were significantly smaller than average. Every one of them was said to have en-
countered some or all of the problems described here.

IMPACT    OF HOSPITAL       CLOSURES

Through interviews with local hospital and Government officials, the inspection assessed:

.     the number of patients affected;
.     the availability of inpatient care;
.     accessto emergency medical services; and
.     present use of the closed hospital buildings.

Inpatient and emergency care were found to be accessibleto most communities where hospi­
tals closed in 1987. Respondentsindicated that accessto care was less convenient for some,
but not a major problem.

How many patients were affected?

Few patients were affected by hospital closure. For rural hospitals that closed in 1987, the
averagedaily censuswas about nine patients. Therefore, when a rural hospital closed, presum­
ing that those hospital stays were necessaryand that the demand remained constant, only nine
beds needed to be found nearby. In the urban areas,25 beds needed to be found.

               WHEN HOSPITALS      CLOSED,     HOW MANY PATIENTS    WERE AFFECTED?


                                               Rural                Urban
                                              Hospitals            Hospitals

       Average Number of Beds                   42.6                83.0
       Average Occupancy Rate             x     21.4%             x 29.6%

       Average Patient Census                    9.1                  24.6



Medicare utilization data were analyzed to determine the number of elderly affected by hosTI­
tal closure. In rural hospitals that closed the averagecensuswas nine patients at the nme 01
closure, Only four were Medicare beneficiaries. In urban hospitals that closed, only i 0 {jr “‘;’
average25 occupied beds were tilled by Medicare patients.




                                                 11 

.                             WHEN HOSPITALS CLOSED,
                     HOW MANY MEDICARE PATIENTS WERE AFFECTED?

                                              Rural                Urban
                                             Hospitals            Hospitals

         Average Patient Census                 9.1                  24.6
         Average Medicare
         Utilization Rate                x    44.9%              x 39.0%

         Average Medicare Patients              4.1                   9.6

Is inpatient care accessible?

Urban:  In urban kas whose hospitals closed, residents of only one community must travel
over 10 miles for inpatient care. In Wasco, California, the nearesthospital is located 19 miles
away in Delano.

One other urban community had a similar situation. During the time the hospital in New Bos­
ton, Texas was closed, residents had to navel 23 miles to Texarkana. However, New Boston
General Hospital reopened in 1988.                                     -?-

Rurul:  In three-quartersof the rural communities studied, another general hospital is located
within 20 miles. Prior to the closure of theserural hospitals, many residents and physicians
were already bypassing the local hospital and traveling to other nearby facilities for care.

Residents of only three of the 37 rural communities must travel further than 30 miles for in-
patient care. In San Manuel, Arizona, residents must go 50 miles to one of several hospitals io­
cated in Tucson. In Mullen, Nebraska, the nearesthospital is located 75 miles away in.Nonh
Platte. In Alaska, Glennallen’s Faith Hospital no longer operatesas a full-service hospital. but
provides emergency care to stabilize patients before they are transported by air to Anchonse
200 miles away.

Is emergency care available?

When a hospital closes, the community loses not only inpatient beds, but also emergent:. or-
vices. Generally, respondentsdid not report significant problems with accessto emrrgcni..
care in the communities studied in this inspection.. In rural areas,where more problem> .n:;nr
be expected, emergency stabilization and transportation systemsare said to work nrhr: .bc:j
overall.

Urban: In urban areas,all but one of the 32 communities whose hospitals closed in s ‘7 - .L:
emergency care available within 10 miles. Most urban communities have several ho\;‘,*.-. I



                                                12 

which provide both inpatient and emergency care, so the closure of one hospital has little ef­
fsct on the community’s emergency care system. Residents of only one community studied
here--Wasco, California--have to travel further, to Delano 19 miles away.

Rural:  In only eight of the 37 rural communities whose hospitals closed, residents had to
travel more than 20 miles for emergency care. In those eight communities, ground or air am­
bulance services were available. Only in Mullen, Nebraska was the travel time over 30
minutes, to North Platte about an hour’s ride by ambulance.


                        When Rural Hospifals Close.. ..
                    WHAT ABOUT EMERGENCIES?




   /        /       /       f        >
                                          ;    ‘V         3o       \‘**       75   myes   “‘J,,
                                                      \        \          \




                            Number       of Hospitals



What happened to the buildings?

In almost half of the 69 casesof 1987 hospital closures, the former hospital buildings are now
used for some health care purpose.

Prior to discontinuing general, acute inpatient care, several hospitals provided more than one
type of service. For example, Ashton Memorial Hospital in Idaho provided both acute 2nd
long-term care services. In 1987, the hospital closed its general, acute care services. It
opened a chemical dependency unit and continues to offer nursing home care.




                                               13 

Other facilities were converted to a different type of health care use. Jay Memorial Hospital
in Jay, Oklahoma, for example, is now a clinic. The following chart illustrates the current use
of all 69 hospitals closed in 1987.


                            CURRENT USE OF HOSPITALS CLOSED IN 1987

                 Use                                        Number of Hospitals* 

                                                          RUlXl              Urban 


            Reopened Hospital                                4                 4
            Speciality Treatment Facility 

            (e.g. chemical dependency) 
                     3                 3
            Long Term Care Facility 
                        7                 1
            Outpatient Services/Clinic 
                     4                12
            Offices 
                                        1                 2
            Vacant 
                                      20                  14


*Duplicate count. Eight of the 69 hospitals provide two separate services.



FUTURE      STUDIES

The OIG will look further into actions communities can take to maintain accessto medical
care in the face of possible hospital closure. Some communities have carefully analyzed their
needs and are constructing affordable medical care systems that meet their needs. The OIG’s
follow-up analyses are intended to learn what stepsthesecommunities have taken and to make
that information available to other communities facing the same dilemmas.




                                                      14 

                                           NOTES 

.


1. Arthur Anderson & Co. and the American College of Hospital Administrators. Heafrh
   Care in the 1990s: Trends ana’ Strategies. 1984.

3. Touche Ross. U.S. Hospitals:   The Future of Health Care. June 1988.

3. 	Larry S. Gage, Dennis P. Andrulis, and Virginia Beers, American’s Safety Net: A Report on
    the Situation in Our Nation’s Metropolitan Areas. National Association of Public Hospi­
    tals. October 1987.

4. 	Hospital occupancy rate is defined as the actual number.of patient days divided by the total
    bed days available. National occupancy rate is defined as the sum of all hospitals’ occupan­
    cy rates, divided by the number of hospitals.

5. 	Average Medicare utilization for closed urban and rural hospitals is defined as the percent
    of Medicare patient days compared to total patient days for each hospital, summed and
    divided by the number of hospitals. National averageMedicare utilization is the percent of
    Medicare utilization for each hospital, summed and divided by the total number of hospi­
    tals. Medicaid utilization is calculated in the same way.

6. Larry S. Gage, Dennis P. Andrulis, and Virginia Beers, American’s Safety Net: A Report on
   the Situation in Our,Nation’s Metropolitan Areas. National Association of Public Hospi­
   tals. October 1987. Page 20.

7. 	Survey by the Mississippi Hospital Association as reported by Health Week,June 6, 1988.
    Page 11.

8. 	Carol McCarthy, President of the American Hospital Association. Testimony to U.S.
    House of Representative Committee on the Budget. August 1, 1988.




                                               15 

                                         APPENDIX A 

    ,
METHODOLOGY

Phenomenon        of dosures

To determine how many hospitals closed in 1987, the study‘was started with a list from the
AHA. The list was compared with the list of Medicare hospital terminations in 1987 in
HCFA’s Health Standards and Quality data base(RADARS). All 50 State licensing and cer­
tification agencies were contacted. State hospital associations and State health planning agen­
cies also were contacted. When closures were found that met the definition of hospital
closures or when discrepancies in data were found, contacts were made with officials as­
sociated with the closed hospitals and officials associatedwith the hospital nearest to the
closed hospital.

To determine the number of hospitals in the U.S. and the bed capacity, the Hospital Cost
Report Information System (HCRIS) maintained by HCFA was used. Only the general, short-
term, acute care hospitals under Medicare’s Prospective Payment System (PPS) were included
in the universe. Five thousand one hundred fifty (5,150) hospitals were listed, less 7 with no
data reported, which left 5,143. This was the universe of short-term, acute care, general hospi­
tals on HCRIS for the fourth year of PPS (PPS 4).

Characteristics    of closed hospitals

To analyze character&s of closed hospitals, HCFA’s HCRIS data were used. Cost reports
were not available for 3 of the 69 closed hospitals. Two were not Medicare providers in the
years prior to closure and one had not submitted a cost report since PPS began. For the
remaining 66 hospitals, the latest cost reports prior to closure containing sufficient data were
used. For example, if a hospital closed in October 1987 and its accounting year was on ~1Juiy -
June cycle, the provider’s July 1, 1986 to July 20, 1987 report was used. Cost report dat;l on
49 of the 69 hospitals were contained in HCRIS for PPS 4, and data on 61 of the 69 hospirnis
were contained in HCRIS for PPS 3.

Reasons for hospital closures

To determine the reasonsfor 1987 closures, officials of the following agencies were ~on[.:i:ct:: 


.       State hospital associations 

.       State health planning agencies 

.       State certification and licensing agencies 

.       closed hospitals; and 

0       nearesthospitals to closed hospitals. 





                                                 A-l
Impact of hospital closures
    .

The “impact” issuesexamined concentrated on those relating to accessto medical care. To 

determine these impacts, many of the following were contacted: 


.        former hospital administrators, board members, and/or staff; 

.        hospital administrators and/or staff at the nearesthospitals; 

.        local police and health officials; 

.        local government officials; 

.        State health planning agencies; 

.        State certification and licensing agencies; and 

.        State hospital associations. 





                                                  A-2 

                            APPENDIX B


                     1987 HOSPITAL CLOSURES




Number of                      Number of      Number of
Closures by State              Rural            Urban

Texas 
         14               8              6
Michigan 
       6               0              6
California 
     5               1              4
Minnesota 
      5               2              3
Illinois 
      .4               2              2
Louisiana 
      4               3              1
Alabama 
        3               3              0
Arkansas 
       3               3              0
Washington 
     3               0              3
Massachusetts 
 2                0              2
Nebraska 
       2               2              0
New York 
       2               0              2
Wisconsin . 
 2                  2              0
Alaska 
         1               1              0
Arizona 
        1               1              0
Colorado 
       1               0              1
Georgia 
        1               1              0
Idaho 
          1               1              0
Missouri 
       1               1              0
Montana 
        1               1              0
North Dakota 
 1                 1              0
New Jersey 
     1               0              1
Ohio       .
    1               1              0
Oklahoma 
       1               1              0
Oregon 
         1               0              1
Virginia 
       1               1              0
West Virginia 
 1                1              0

27 States      69Closures       FRural         32 Urban




                               B-l
                            1987 HOSPITAL CLOSURES
 I                             By Name and Location

Hospital Name                        City                 State   .Rural/Urban

Faith Hospital                       Glennallen           AK         rural
Guin Hospital                        Guin                 AL         rural
Livingston-Tombigbee                 Livings ton          AL         rural
John Andrew Community Hospital       Tuskegee Insmute 
   AL         rural
Delta Medical Center                 Brinkley 
           AR         rural
Gurdon Municipal Hospital            Gurdon 
             AR         rural
Lafayette County Memorial Hospital   Lewisville 
         AR         rural
San Manuel Division Hospital         San Manuel           AZ         Nd
Kings burg General Hospital          Kingsburg            CA         urban
ShastaGeneral Hospital               Redding              CA         urban
North Kern Hospital                  Wasco                CA         urban
Coming Memorial Hospital             Coming               CA         rural
Buena Park Community Hospital        Buena Park           CA         urban
Memorial Hospital                    Greeley              co         urban
Fort Gaines/Clay County Hospital     Ft. Gaines           GA         rural
Ashton Memorial Hospital             Ashton               ID         rural
SaundersHospital                     Avon                 IL         rural
Provident Medical Center             Chicago              IL         urban
Walther Memorial Hospital            Chicago              IL         urban
Paxon Community Hospital             Paxton               IL         rural
Dixon Memorial Hospital              Denham Springs       LA         urban
Catahoula Memorial Hospital          Jonesville           LA         rural
Leesville General Hospital           Leesville            LA         run1
Regent Hospital Acadiana             Erath                LA         rural
Mary A. Alley Hospital               Marblehead           MA         urban
Parkwood Hospital                    New Bedford          MA         urban
Lakeshore Hospital                   Detroit              MI         urban
Metro Hospital & Health Center       Detroit              MI         urban
Milton Community Hospital            River Rouge          MI         urban
A. Blain Hospital                    Detroit              MI         urban
Detroit Memorial Hospital            Detroit              MI         urban
Springwells Health Center            Dearborn             LMI        urban
St. John’s Hospital                  Browerville          MN         rural
Community Memorial Hospital          Clarkfield           MN         NKll
Samaritan Hospital                   St. Paul             MN         urban
St. John’s Eastside                  St. Paul             MN         urbar:
‘Mounds Park Hospital                St. Paul             MN         urb.:::
Poplar Bluff Hospital                Poplar Bluff         MO         rur;::
Missoula General Hospital            Missoula             MT         rur::.




                                            B-2 

                             1987 HOSPITAL CLOSURES 

.                               By Name and Location

Hospital Name                       City                  State   Rural/Urban

Rolette Community Hospital          Roiette 
             ND        rural
Grand Island Memorial Hospital      Grand Island 
        N-E       NIXi
Pioneer Memorial Hospital           Mullen 
              NE        Nl-d
South Bergen Hospital               Hasbrouck Heights 
   NJ        urban
Baptist Medical Center              Brooklyn 
            NY        urban
Sheridan Park Hospital              Tonawanda 
           NY        urban
Southern Hills Hospital             Portsmouth 
          OH        NEil
Jay Memorial Hospital               Jay 
                 OK
CascadeCommunity Hospital           Central Point 
       OR        urban
Shelby General Hospital             Center 
              TX        rural
Foard County Hospital               Crowell 
             TX        rural
Dallas Medical & Surgical           Dallas 
              TX        urban
Northpark Hospital                  El Paso 
             TX        urban
Continental Hospital North          Ft. Worth 
           TX        urban
Deaton Hospital                     Galena Park 
         TX        urban
Hamilton General Hospital           Hamilton 
            TX        rural
Hospital in the Pines               Lone Star 
           TX        NEll
Meridian Hospital                   Meridian 
            TX        rural
New Boston General Hospital         New Boston 
          TX        urban
Rosebud Community Hospital          Rosebud 
             TX        rural
Brazos Valley Hospital              Sealy 
               TX        rural
Wortham Hospital                    Wortham 
             TX        rural
Y sle’taGeneral Hospital            El Paso 
             TX        urban
Wytheville Hospital                 Wytheville 
          VA        rural
Northgate General Hospital          Seattle 
             WA        urban
Shorewood Osteopathic               Seattle 
             WA        urban
Pacific Medical Center              Seattle 
             WA        urban
Algoma Memorial Hospital            Algoma 
              WI        rural
Buffalo Medical Center              Mondovi 
             WI .      rural
Stevens Clinical Hospital           Welch 
               WV        rural




                                            B-3 

